CERTIFICATE OF WORD COUNT
NO. 20-148
Marvin Washington et al.,
Petitioners,
v.
William P. Barr et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that THE LAST PRISONER PROJECT
AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS contains 4258 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 11, 2020

SCP Tracking: Weinstein-PMB #368-Cover Cream

